<html>
<title> - U.S. POLICY TOWARD MOROCCO</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       U.S. POLICY TOWARD MOROCCO

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2014

                               __________

                           Serial No. 113-134

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-518                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e88f9887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>  

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida<greek-l>       JUAN VARGAS, California
TREY RADEL, Florida--resigned 1/27/  BRADLEY S. SCHNEIDER, Illinois
    14 deg.                          JOSEPH P. KENNEDY III, 
DOUG COLLINS, Georgia                    Massachusetts
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
LUKE MESSER, Indiana


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. William Roebuck, Deputy Assistant Secretary of State for 
  Egypt and Maghreb Affairs, Bureau of Near Eastern Affairs, U.S. 
  Department of State............................................     6
Ms. Alina Romanowski, Deputy Assistant Administrator, Bureau for 
  the Middle East, U.S. Agency for International Development.....    14

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. William Roebuck: Prepared statement..........................     8
Ms. Alina Romanowski: Prepared statement.........................    16

                                APPENDIX

Hearing notice...................................................    34
Hearing minutes..................................................    35


                       U.S. POLICY TOWARD MOROCCO

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 3 o'clock p.m., 
in room 2167 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. We 
will sadly soon be interrupted for votes, but getting 
interrupted for democracy is a good thing.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute. We will then 
hear from our witnesses and without objection, the witnesses' 
prepared statements will be made a part of the record and 
members may have 5 days to insert statements and questions for 
the record subject to the length limitation and the rules. The 
chair now recognizes herself for 5 minutes.
    With all the upheaval, instability, and social unrest in 
the wake of the Arab Spring, Morocco is designated as a major 
non-NATO ally and is working toward a political transition in 
instituting democratic reforms. Three years ago, King Mohammed 
proposed constitutional reforms that would push Morocco toward 
democracy and reform, shifting some power that was centralized 
in a monarchy to the people. This new constitution was ratified 
a few months later and was succeeded by parliamentary elections 
that saw a new government formed, complete with a new Prime 
Minister from an opposition party with a mandate to have more 
power to govern. Of course, the political situation in Morocco 
is still not perfect, but it is important for us to recognize 
the positive steps forward.
    On the issue of the Western Sahara, long-standing U.S. 
policy, which I support, advocates for a solution based on a 
formula of autonomy under Moroccan sovereignty. While I 
recognize the advancement that the kingdom has made, when it 
comes to human rights, certainly more can still be done. 
According to the 2013 State Department Human Rights Report on 
Western Sahara, ``The most important human rights problem 
specific to the territory was Moroccan Government restrictions 
on the civil liberties and political rights of pro-independence 
advocates.''
    Morocco has made strides in expanding women's rights and 
has created the National Council of Human Rights to evaluate 
all the human rights issues. As allies, we should work together 
as partners to accelerate their plans to implement the 
constitutional reforms that urge gender equality and parity. 
Since becoming the very first nation to formally recognize the 
newly independent United States of America, Morocco and the 
United States have shared a strategic and bilateral 
relationship. It is one that has continued to strengthen over 
the past few years as we have just seen Secretary Kerry return 
from a trip in which he took part in the second round of the 
U.S.-Morocco Strategic Dialogue aimed at deepening our 
bilateral cooperation on a variety of issues.
    Our nation signed and implemented a free trade agreement 
nearly 10 years ago and there is certainly room to grow for 
both the Moroccan and U.S. economies through U.S. commercial 
investment and expansion of American businesses in the Maghreb. 
Last year, Morocco successfully completed a 5-year Millennium 
Challenge Corporation Compact in which the U.S. helped Morocco 
increase productivity, employment prospects, investment, and 
economic growth. MCC concluded that the results on the compact 
were impressive, given the complexity of the endeavor with tens 
of thousands, mostly women, learning to read and write through 
the literacy program.
    So the political transition toward democracy is being 
paralleled by Morocco's economic transition which is under way. 
But that is contingent upon Morocco remaining a safe and stable 
country and that is yet another area in which our two nations 
collaborate closely. While the rest of the region struggles to 
cope with radicalization and Islamic fundamentalism, Morocco is 
working to foster and spread a more moderate form of Islam in 
the Muslim Kingdom. One way Morocco promotes religious 
moderation and tolerance is through its nearly 10-year-old 
program in which it trains women in Islamic theology right 
alongside their male counterparts, an idea that would not only 
be taboo in many other countries in the region, but would 
likely be highly illegal. While the kingdom has not been immune 
to the threat of home-grown extremism, Morocco is on the front 
lines of fighting terrorism throughout the region. Our two 
nations work closely in this regard and Morocco has proven to 
be an important ally.
    One important counterterrorism effort that we can work 
closely with Morocco on is the Trans-Saharan Counterterrorism 
Program which aims to address the potential terrorist and 
security threats in Northwest Africa and the Sahel region, but 
we can and must do more. The administration must continue to 
see Morocco as the potential for what other North African 
transitional countries can do and we must look to glean the 
best practices from its approach and see how they can be 
implemented in neighboring countries as well.
    And with that, I turn to my good friend, the ranking 
member, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madame Chairman. Thanks for holding 
today's hearing. Thanks to our witnesses for being here today 
to examine the long-standing United States-Morocco partnership. 
And when we say long-standing, we mean it as Morocco was the 
very first country to recognize a U.S. independence. It is nice 
to have Ambassador Bouhlal here as well. Thank you for joining 
us.
    Last November, President Obama welcomed King Mohammed to 
the White House to affirm our strategic relationship and commit 
to strengthen and mutual cooperation on a host of significant 
issues. On the security front, Morocco has emerged as a 
critical partner in our efforts to fight extremism and promote 
stability in the Maghreb and in the Sahel. Morocco is one of 
only two African countries to be designated as a major non-NATO 
ally and is a member of the Global Counterterrorism Forum.
    Just last week, the United States and Morocco concluded the 
annual African Lion joint military exercise with approximately 
350 service members, 150 Moroccan Royal Armed Forces members 
and participants from various European African partners. This 
level of cooperation is paramount to confronting the threats 
posed by groups like al-Qaeda and the Islamic Maghreb and other 
al-Qaeda affiliated militias and to assist in our joint efforts 
to stem weapons transfers and narcotrafficking across the 
continent. It is clear that Morocco is committed to taking 
substantial action to prevent Northern Africa from becoming a 
safe haven for terrorist groups.
    I would also like to highlight a unique initiative launched 
by the king to train imams from Mali, Tunisia, Libya, Guinea 
and the Ivory Coast and Morocco. It is my understanding that 
the first group of 100 imams have already arrived. This is a 
welcome approach to curbing the spread of extremist ideology in 
a volatile region of the world.
    In addition to its leadership role on regional security 
matters, Morocco has pursued greater bilateral ties on economic 
and development issues with many of its African neighbors. In 
November, the king signed 18 agreements with Mali on a range of 
issues from microfinance to energy. But Morocco still struggles 
with its own economic development as the economy has been 
adversely affected by the economic troubles in Europe, 
Morocco's largest trading partner.
    The 2011 expansion in state spending on social programs, 
public hiring, and subsidies has also put a strain on the 
economy. Unemployment rates among youths are estimated at 22 
percent among males, and 38 percent among females. I am pleased 
that one of the pillars of USAID's new country development 
strategy signed in November 2013 is addressing youth 
unemployment.
    Political reforms initiated by the king in response to 
unrest have seen success, and we must continue to help shepherd 
along reforms that will address civil society participation. 
USAID remains focused on helping to build civil society to 
include expanded roles for women in a political and economic 
space.
    The United States has also contributed to Morocco's 
economic growth in a significant way through the completion of 
a $698 million Millennium Challenge Corporation Compact and the 
country has not been selected for a second compact.
    Morocco has long played a leading role in fostering greater 
cooperation between North Africa and the Middle East, 
coordinating closely on farm policy matters with the Gulf 
Cooperation Council. As chair of the Al-Quds Committee and the 
Organization of Islamic Cooperation, we look to Morocco to play 
a positive role in helping to foster continued peace talks 
between the Israelis and the Palestinians. We cannot forget 
that it was King Hassan that in the 1980s took the bold step of 
inviting then Prime Minister Shimon Perez to Morocco for peace 
talks. In that vein, many of us were concerned to see a law 
proposed in Parliament late last year that would have 
criminalized any normalization of relations with Israel. I hope 
that we will not see any advancement of this proposal.
    Finally, in advance of the king's visit last November, 
Chairman Ros-Lehtinen and I reiterated our support for the 
long-standing U.S. policy to support a solution to this dispute 
based on a formula of autonomy under Moroccan sovereignty. This 
policy has enjoyed the support of the last three 
administrations and continues to earn strong bipartisan support 
in Congress. With over 200 years of friendship between our two 
countries, the U.S.-Morocco partnership will only be 
strengthened by the launch of last year's strategic dialogue. 
As Secretary Kerry said last week during his visit, the 
strategic dialogue will contribute to the ability of the United 
States and Morocco to show that we value something a lot more 
powerful than our past and that is the future.
    I look forward to hearing from our witnesses on how we can 
continue to help Morocco bolster its economic and security 
situation as we continue to enhance the U.S.-Morocco 
partnership. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch and we 
would like to acknowledge the presence of the Ambassador of the 
Kingdom of Morocco to the United States. Thank you, Ambassador 
Bouhlal for being with us today. You are a dear friend. Thank 
you so much.
    And now I am pleased to yield for his opening statement to 
the chairman of the Subcommittee on Asia and the Pacific, Mr. 
Chabot of Ohio.
    Mr. Chabot. Thank you, Madame Chair, and thank you for 
holding this hearing. We have witnessed political and 
humanitarian crises all around the world in recent times, but 
we don't hear that much from Morocco and maybe that is not a 
bad thing. We are looking forward to hearing from our witnesses 
today and getting an update on our current relationship with 
the kingdom and a status report on regional political 
situations.
    We know that in 2011, King Mohammed responded to the on-
going Arab Spring by drafting a new constitution which was 
subsequently adopted by popular referendum that afforded new 
authority to elected officials. I hope our witnesses can speak 
to how that reform is being carried out.
    Additionally, I hope our witnesses will comment on the 
performance of the Justice and Development Party and Islamist 
Party which in 2012 won the largest number of parliamentary 
seats in the Moroccan election. So there is a lot to talk about 
and so I will stop talking and I yield back and look forward to 
hearing our witnesses. Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Chabot. And 
so pleased to yield to another Florida colleague, Lois Frankel 
for her opening statement.
    Ms. Frankel. Madame Chair, it is a little lonely down at 
this end.
    Ms. Ros-Lehtinen. Come in closer, come on over.
    Ms. Frankel. I will. First, thank you so much for being 
here. I am very interested in this, and Madame Chair, I have a 
number of questions, but I would like to hear our witnesses' 
testimony and then I will go forward with them.
    Ms. Ros-Lehtinen. Thank you very much.
    Ms. Frankel. Thank you.
    Ms. Ros-Lehtinen. Now we turn to Mr. Cotton for any opening 
statement he would like to make. And the subcommittee is very 
pleased to have a special guest with us today, Mr. Grimm, who 
has been a long-time friend of Morocco and has been very much 
involved in their issues. Please give an opening statement if 
you could, Mr. Grimm.
    Mr. Grimm. Well, thank you so much, Madame Chairwoman. As 
the co-chair of the Congressional Morocco Caucus I thank you 
for holding this hearing and for inviting me to be with you 
today among my friends, so thank you. Morocco, it has already 
been said and everyone knows, has historically been one of 
America's strongest and most reliable allies. Currently, the 
Kingdom of Morocco is a strong partner in combatting terrorism 
throughout North Africa and Morocco is also the only country in 
the African continent in which we have a free trade agreement. 
So I think that is extremely important to note.
    King Mohammed successfully weathered the Arab Spring mostly 
by listening to the Moroccan people and making appropriate 
reforms and for this I think he should be commended. As already 
mentioned, Madame Chairwoman, during President Obama's recent 
meeting with King Mohammed, they specifically pledged and I 
quote, ``A shared commitment to advancing the peaceful 
resolution to the Western Sahara issue based on autonomy under 
Moroccan sovereignty.'' Well, I believe that the United States 
Congress has a responsibility to assist Morocco in achieving 
this resolution. The State Department, USAID, and other 
development agencies in the United States Government must 
devote some of their assistance funds for Morocco to projects 
designed to improve the quality of life for the people of 
Western Sahara. So I am very excited to be here. I thank you 
again. And I am looking forward to hearing from our witnesses 
today. Thank you and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Grimm, and you are 
always welcome to come to our subcommittee. Thank you. And we 
are so pleased to welcome our excellent witnesses today. First, 
we welcome Mr. William Roebuck who is the Deputy Assistant 
Secretary of State for Egypt and Maghreb Affairs. Before this, 
he served as Charge d'Affairs in Tripoli for 6 months from 
January to June 2013 and as Director for the Office of Maghreb 
Affairs in the State Department's Bureau of Near Eastern 
Affairs from 2010 to 2012. Welcome, Mr. Roebuck.
    We also have with us Ms. Alina Romanowski. Did I do that 
pretty well? I have got a difficult name so I don't worry if 
someone mispronounces mine. And Ms. Romanowski is currently 
Acting Assistant Administrator for the Middle East Bureau at 
the U.S. Agency for International Development. Prior to this 
position, Ms. Romanowski, and of course, Eddy would put her 
name in every sentence here, served as Deputy Assistant 
Administrator in the Middle East Bureau focusing on U.S. 
assistance programs in support of political transitions in 
Egypt, Libya, Tunisia, and Morocco. We welcome our witnesses 
and we will begin with you, Mr. Roebuck. Your prepared 
statements will be made a part of the record. Please feel free 
to summarize them.

STATEMENT OF MR. WILLIAM ROEBUCK, DEPUTY ASSISTANT SECRETARY OF 
  STATE FOR EGYPT AND MAGHREB AFFAIRS, BUREAU OF NEAR EASTERN 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Roebuck. Thank you very much, Chairman Ros-Lehtinen, 
Ranking Member Deutch, members of the subcommittee, Congressman 
Grimm, thank you very much. I am honored to appear before you 
today to offer you these remarks on U.S. policy to Morocco. I 
am pleased to appear with my good friend, USAID Assistant 
Deputy Administrator Alina Romanowski. I have had the pleasure 
of working with Alina to further our foreign policy objectives 
in Morocco and in the region. We welcome the opportunity to 
speak to you today and look forward to answering any questions 
you might have about Morocco or our policy toward Morocco.
    With your permission, I will request that my full statement 
be submitted to the record. So I will just summarize here 
briefly.
    Madame Chairman, as you know, Morocco, as several of you 
have mentioned, is the first nation to have recognized the 
United States in 1777. It is an important and long-standing 
ally. We continue to enjoy a very strong bilateral relationship 
with Morocco focused on promoting regional stability, 
supporting democratic reform efforts, countering violent 
extremism, and strengthening trade and cultural ties. We worked 
to strengthen our relationship with Morocco during the November 
2013 visit of King Mohammed VI to Washington. This visit 
provided an opportunity for the United States to affirm our 
close strategic partnership with Morocco and to discuss the 
best means of promoting security and prosperity in the region.
    We continued our conversations during the recent U.S.-
Morocco Strategic Dialogue which Secretary Kerry opened in 
Rabat on April 4th. This Dialogue was originally launched 2012 
and it discussed new avenues for cooperation in the political, 
security, economic, educational, and cultural spheres. We are 
also very pleased that our new Ambassador to Morocco, Dwight 
Bush, was confirmed in March and has arrived in Rabat.
    Regarding briefly democratic reforms in Morocco, under King 
Mohammed VI, the Moroccan political system has gradually 
liberalized. A new constitution, as several of you noted, was 
adopted in 2011 and Morocco's first Islamist-led government won 
nationwide democratic elections. The country moved forward in 
2013 with calibrated, but steady, political and economic 
reforms. We have a robust dialogue with the Moroccan Government 
on human rights and on ways in which we can support this on-
going process of political reform.
    Our mutual concern for peace and stability in the region 
means that the United States and Morocco are fully engaged on 
both economic and security cooperation. On economic 
cooperation, USAID's new country development strategy directly 
addresses the issue of youth employment, a key driver of 
instability in the region through the creation of new 
vocational programs and career centers. The United States and 
Morocco also recently held the second U.S.-Morocco Business 
Development Conference in Rabat with 58 American companies 
participating. Regarding security cooperation, Morocco is one 
of our closest counterterrorism partners. Morocco is an active 
member, as you have noted, of the Trans-Saharan 
Counterterrorism Partnership and also the Global 
Counterterrorism Forum.
    Regarding Western Sahara, the United States supports the 
United Nations-led process designed to bring about a peaceful, 
sustainable, and mutually acceptable solution to the Western 
Sahara question. U.S. policy toward Western Sahara has remained 
consistent for many years. We support the work of U.S. 
Secretary General's personal envoy, former U.S. Ambassador 
Chris Ross in his efforts to find a mutually-acceptable 
solution.
    Regarding education and cultural cooperation, the United 
States and Morocco have a long history of people-to-people 
ties. One recent example is Morocco's support of the J. 
Christopher Stevens Virtual Exchange Initiative. The initiative 
is designed to fuel the largest ever growth in people-to-people 
exchanges between the United States and the broader Middle 
East. And Morocco has graciously committed to donate $1 million 
per year over the next 5 years to this initiative.
    Madame Chairman, Ranking Member Deutch, members of the 
subcommittee, I appreciate the opportunity to appear before you 
today and I look forward to answering any questions you might 
have. Thank you.
    [The prepared statement of Mr. Roebuck follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, sir.
    Ms. Romanowski.

      STATEMENT OF MS. ALINA ROMANOWSKI, DEPUTY ASSISTANT 
  ADMINISTRATOR, BUREAU FOR THE MIDDLE EAST, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Romanowski. Chairman Ros-Lehtinen, Ranking Member 
Deutch, members of the subcommittee, and Congressman Grimm, 
thank you for inviting me here today to discuss how USAID 
continues to support U.S. foreign policy and development 
objectives in Morocco. And I am very pleased to be here also 
with my colleague, Bill Roebuck, with whom I work closely every 
day.
    For the past 56 years, we have partnered with the 
Government of Morocco to build a strong relationship that 
focuses on promoting economic growth, improving educational 
opportunities, and strengthening the effectiveness of civil 
society. During this time, we have worked to make substantial 
improvements in the lives of everyday Moroccans including 
improving maternal and child health, constructing two major 
dams, transforming thousands of semi-arid acres into productive 
agricultural land, and helping Morocco's microfinance sector.
    We are proud and remain committed to this partnership which 
is why during the visit of King Mohammed VI to Washington last 
year, USAID and the Government of Morocco jointly launched a 
new 5-year country development strategy. Developed in 
collaboration with the Moroccan Government, civil society, and 
the private sector, the new strategy responds to the needs of 
Moroccan citizens and focuses on three key objectives, 
increasing youth employment, enhancing civic participation in 
governance, and improving education for children in primary 
schools. As we focus on these three objectives, we recognize 
that we must be strategic in our investments amid an 
increasingly strained budget outlook. Therefore, we are 
focusing like never before on strengthening alliances with key 
regional allies and building public-private partnerships with 
such entities as Microsoft, Volvo, and Chevron.
    USAID's economic growth programs are aimed at directly 
addressing youth unemployment. Young people make up about 30 
percent of Morocco's population. That is about 10 million 
people. Large numbers of Moroccan graduates are unable to find 
jobs commensurate with their education and training, while 
employers complain of skills, shortages, and mismatches. 
Without a trained workforce, capable of increasing 
productivity, Morocco cannot generate sufficient prosperity 
through private sector growth. To address this and other 
obstacles, USAID is launching the Youth Employability Project. 
This new initiative will facilitate partnerships between 
government ministries, Moroccan universities, and technical 
institutes, as well as local NGOs and the private sector to 
create workforce development services for a broad range of 
youth. For example, we are currently working with 40 startup 
Moroccan businesses to locate new markets and realize 
sustainable revenue flows.
    In the Democracy and Governance sector, USAID is responding 
directly to the Government of Morocco's push to strengthen 
political parties and increase the roles of civil society 
organizations in the political process. We are currently 
working with more than 80 local governments to create platforms 
for dialogue between Moroccan citizens and their locally 
elected officials, especially for youth and women.
    USAID's third strategic focus in Morocco is improving 
primary school education. USAID has improved quality and access 
to elementary and middle school, especially for rural girls. 
Enrollment of girls in rural areas increased from 62 percent in 
2000 to 83 percent in 2004, but despite these gains, Morocco 
still faces an overall literacy rate of only 55 percent. In 
conjunction with Morocco's own education reform effort, USAID 
is targeting early grade reading. These programs are designed 
to improve early literacy and help curb primary grade dropout 
rates. USAID is also implementing innovative community and 
school-driven development projects in over 190 schools.
    Finally, USAID is also responding to a critical challenge 
of countering violent extremism. In those programs, we target 
areas in Morocco where youth suffer from social, economic, and 
political disaffection and exclusion. These areas are known 
recruitment grounds for violent extremist and transnational 
terrorist networks. Our program is aimed at reintegrating at-
risk youth into mainstream society, given Moroccan youth a 
voice, and opportunities in their communities.
    So in conclusion, USAID is proud of the strong relationship 
we have built with the Government of Morocco over the past 56 
years. Morocco continues to face significant challenges, but 
also significant opportunities. USAID programs will continue to 
provide assistance that will increase employment opportunities 
for Moroccan youth, build the reading skills of Moroccan 
children and advance participatory governance in addition to 
countering violent extremist threats and strengthening regional 
stability and security.
    Thank you for the opportunity to appear before you today, 
and we are looking forward to answering your questions.
    [The prepared statement of Ms. Romanowski follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you. And thank you to both of you 
for excellent testimony. We will begin our question and answer 
period.
    As we have said, the U.S. and Morocco share a strategic and 
dynamic bilateral relationship. In the omnibus bill that we 
passed in January, Congress authorized that funds designated 
for Morocco could also be used in the Western Sahara for 
literacy training programs. The bill requests that a report 
from the State Department on this issue and the report is due 
next week. Can you describe what the report will entail and if 
it will be delivered on time?
    Then on the threat of fundamentalism in the area, the 
threat of radical Islam and extremism spreading through North 
Africa and indeed throughout the entire African continent is a 
very real threat and a cause for alarm. That is why the United 
States has put such an emphasis on working with Morocco to 
counter these threats.
    How would you describe the cooperation with Morocco on the 
counterterrorism front? Is it as good as it can be? Is it 
getting better? Are you satisfied with it? And to what extent 
are programs like the Trans-Sahara Counterterrorism Program 
working? What more needs to be done both on Morocco's side and 
the U.S. side to improve it?
    And as we discussed just last week, Secretary Kerry was in 
Rabat to take part in the second round of the U.S.-Morocco 
Strategic Dialogue. Can you briefly explain what came out of 
that latest round in the dialogue? What did we achieve? What 
did we accomplish? And what challenges still remain? Thank you.
    Mr. Roebuck. Thank you, Madame Chairwoman. I will start 
maybe in reverse order and work my way back up. The Strategic 
Dialogue was a big success. Secretary Kerry opened it. We had a 
strong team that came out from the State Department that 
participated in it. The purpose of this dialogue is to 
accentuate and highlight the strong strategic partnership we 
have with Morocco and we focus on a range of areas, three 
working groups in particular: Political security, economic and 
commercial cooperation, and education and cultural cooperation. 
I think we made strong steps forward in all three of these 
groups. The political and security group, there was a robust 
discussion of Morocco's progress on domestic reforms and also 
encouragement from Morocco's efforts on counterterrorism. The 
economic and commercial cooperation group discussed promoting 
regional economic integration and also Morocco and the U.S. 
trade investment relationship and particularly trying to 
strengthen the benefits for Morocco of the U.S.-Morocco free 
trade agreement.
    On education and cultural cooperation, as I mentioned 
earlier, there was a discussion of the Chris Stevens Virtual 
Exchange Initiative, efforts to improve on interfaith dialogue 
and understanding, and a discussion of various educational and 
cultural exchange programs we have with Morocco, including for 
example, the Fulbright program.
    On the threat of fundamentalism and extremism in Morocco 
and in the region at large, I share your concern, Madame 
Chairman. This is not a new phenomenon. This is something that 
has been developing in the region over the past decade really. 
It has been fed in some ways in the past several years by 
developments in Mali, in the wider Sahel, and also in Libya 
where there has been a deteriorating security situation in the 
past 2\1/2\ years. We work very closely with Morocco on 
counterterrorism. I think that our partnership is quite strong. 
We have a number of programs, a number of vehicles that we use 
to fund these programs. Trans-Saharan Counterterrorism 
Partnership is one. We use funding through NADR as well as INL 
money to--it is focused primarily on strengthening Morocco's 
law enforcement and criminal justice system. It also provides 
training for law enforcement people who are involved in 
antiterrorism efforts to strengthen their professionalism and 
strengthen their efforts with things like Internet, forensic 
investigation, the ability to do criminal investigations in 
general and use these types of law enforcement tools as a means 
for combatting terrorism.
    Ms. Ros-Lehtinen. Thank you very much. And I apologize, my 
time is up. Thank you very much.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madame Chairman. Deputy Assistant 
Secretary Roebuck, just to follow up on this discussion, 
clearly, security cooperation is a critical component of the 
relationship. And you had included in your testimony the figure 
of 49 percent of Moroccan youth are neither in school nor in 
the workforce which is a staggering figure, I think. I know we 
share concerns with Morocco that some segments of that 
population might be vulnerable to extremist recruitment. The 
porous borders of North Africa make it easy to say, go be paid 
to fight in Syria for a few months, come back to Morocco. Can 
you discuss ways in which the U.S. and Morocco are working 
together to address that specific security concern?
    Mr. Roebuck. The issue of foreign fighters?
    Mr. Deutch. Yes.
    Mr. Roebuck. The United States and Morocco work closely on 
this. This is largely an effort that has to be directed by 
Morocco, but we consult with the Moroccan Government closely on 
this issue. We recognize that it is a serious issue for the 
Morocco Government. A lot of it has to do with the need for a 
multi-faceted approach to this and to a counterterrorism 
approach in general and this is what the Moroccan Government 
has in place. Part of their focus is I would call it vigilant 
security efforts or operational efforts. Part of it is 
<greek-l>* (3:38:56)  deg.side efforts through countering 
violent extremism with education. Part of it is focused on 
education and socio-economic assistance.
    I think Morocco has a broad, focused counterterrorism 
policy and that is what they use to address this particular 
issue that you focused on which is foreign fighters going to 
Syria and coming back. I can give you more detail if you would 
like it, but that is the general approach that they use and we 
are very supportive of it.
    Mr. Deutch. I appreciate that. Ms. Romanowski, I was 
pleased to see USAID placing such great emphasis in the new 
country development cooperation strategy on youth unemployment 
which was mentioned earlier was around 30 percent. We know the 
major cause of the unrest in 2011 came from disaffected youth. 
Morocco recently announced ambitious plans to build up industry 
and create \1/2\ million new sustainable jobs by 2020 and to 
significantly increase the share of industry in GDP to 23 
percent versus the 14 percent today.
    How will USAID's programs work in concert with this new 
initiative and are we going to have to realign some of our 
programming in light of that effort?
    Ms. Romanowski. Thank you for the question, sir. I think we 
have already realigned our programs in a sense through the 
conversation, the dialogue we have had with the Government of 
Morocco when we built this new 5-year development strategy. And 
specifically in our economic program, the Employability, we are 
focusing on bringing universities and vocational school 
students and the private sector and the government to find ways 
that we can improve employment skills of these young people and 
then offer them actual centers where they can do that and also 
where the private sector can come together. So this 
conversation, this particular program that we are focusing on 
is doing exactly that. And it is not out of sync with, I think, 
supporting what their efforts are trying to do in attracting 
more investment.
    Mr. Deutch. Great. And finally, another focus of USAID is 
increasing civic participation, particularly for women and as 
part of a series of electoral reforms, Parliament now has a 66 
quota for women. I would like for you to just talk about the 
trend lines that you are seeing among women in politics, how do 
we get there, how do meet those goals?
    Ms. Romanowski. I think the trend lines in Moroccan 
politics for women are positive. In the last two visits or 
three visits I have been to Morocco, I have met many of the 
women parliamentarians and politicians and those who are active 
in politics, both at the local level and at the national level 
and both through our programs, the local governance program and 
also through our political party strengthening. We are making 
sure that not just women, but also young women and young men 
are part of reaching out and getting a more active 
participation. So in the many years I have been working in 
Morocco in this area, I see that there is a lot of interest in 
women to come into politics, which is always a good thing.
    Mr. Deutch. Great. Thank you. Thank you, Madame Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. Subcommittee Chair 
Chabot is recognized.
    Mr. Chabot. Thank you, Madame Chair. Morocco has been 
supportive of the Arab-Israeli peace negotiations. And recently 
an anti-Israel group, the Moroccan Observatory Against 
Normalization, an organization that is working to end commerce 
and international ties between Israel and Morocco, published a 
list of people and institutions it accuses of collaboration 
with the Jewish state. How has King Mohammed and the Moroccan 
Government responded to this? Is this group a cause for concern 
that could negatively affect Moroccan-Israeli relations? And 
what steps can the administration take or has it taken to 
ensure that productive relations between Israel and Morocco 
continue?
    Mr. Roebuck. Thank you, Congressman Chabot. Morocco and 
Israel have a long history of positive relations. With regard 
to these developments that you have pointed to, our review is 
that these efforts have stalled and they are likely to--we 
think they will stay stalled. We believe that the values in 
Morocco of religious interfaith dialogue and religious 
tolerance will triumph. We know that there have been efforts to 
move a piece of legislation which is similar to what you are 
referring to. That effort has stalled. I believe that King 
Mohammed IV and the Government of Morocco have worked very hard 
to foster an atmosphere of religious tolerance and interfaith 
understanding that will prevent such measures from moving 
forward.
    Mr. Chabot. Thank you. We know there are a lot of bad 
actors in the region and that Moroccan authorities have taken a 
proactive approach to countering the presence of extremists 
ideologies in the country. Could either of you comment on some 
of the successful elements of their counterterrorism programs?
    Mr. Roebuck. I will start, Congressman Chabot and Alina, if 
you would like to say something, you are welcome to.
    As we mentioned earlier in my testimony, the Moroccans have 
been very effective counterterrorism partners. The reason that 
they have been effective is that they developed a strategy that 
has several different elements to it, all of which are proven 
elements that are effective in countering terrorism. It is not 
just operational, although that is a piece of it. The Moroccan 
Government has also been very good at developing programs 
designed to counter balance extremism. It builds off of the 
Moroccan Government effort and the King's effort to promote a 
tolerant, moderate brand of Islam in the kingdom. They have 
made efforts to train imams, religious leaders, from 
neighboring countries in ways that would encourage political 
moderation and religious moderation including a large number of 
imams from nearby Mali where there have been a lot of problems 
with these extremists.
    So the bottom line is that they have been very effective 
because they have used tools in the tool kit. In addition, they 
have been very active as regional international partners, 
cooperating on counterterrorism, both with our efforts on the 
Global Counterterrorism Forum and the Trans-Saharan 
Counterterrorism Partnership and working with their neighbors, 
they posted a border conference for Libya and they have done 
other things on foreign fighters working with The Netherlands. 
So across a wide range of fronts, they have taken action on all 
of them. That is why they have been effective. Thank you, sir.
    Mr. Chabot. Thank you, sir. Ms. Romanowski.
    Ms. Romanowski. I would point in addition to our broader 
workforce development program for young people, I would point 
to two other programs. One is our civic participation program 
that focuses on marginalized urban youth where we are working 
with the local governance structures and elected officials to 
better focus on being responsive to the concerns of young 
people, particularly marginalized youth in their areas.
    And then the second one which is very specific to two areas 
where I think we and the Government of Morocco have identified 
as being particularly regions of struggle and that is in the 
neighborhood of Tangier and Tetouan where we have focused a 
youth program that responds to those specific neighborhoods in 
trying to again bring out the voices and make the marginalized 
youth much more confident that they can be a participatory and 
a constructive voice even in their local neighborhoods.
    Mr. Chabot. Thank you. In the time that I have remaining, I 
would like to turn briefly to trade. Some argue that the U.S.-
Moroccan trade agreement limits stronger economic integration 
between Morocco and other African nations. Would you agree with 
that? And do you believe that the U.S. and Morocco, that both 
countries have mutually benefitted from our trade partnership? 
And what does the future of U.S.-Moroccan trade relations look 
like, in 17 seconds.
    Mr. Roebuck. Thank you, Congressman. I think the free trade 
agreement has been a huge benefit for both sides. The United 
States has benefitted somewhat more in the initial years than 
the Moroccans, but both sides have seen huge increases in 
bilateral trade. I do not believe that it has been a hindrance 
to Moroccan trade with the region and I think they have a huge, 
bright future trading with us and with other partners. They are 
a hub for Europe, but also for Africa and we are working with 
them to strengthen the ways in which they can benefit from our 
free trade agreement. Thank you.
    Mr. Chabot. Well done. You took 41 seconds, but well done.
    Ms. Ros-Lehtinen. Very good. Thank you. I am looking 
forward to reading your article Bloomsday in Baghdad, Reading 
Joys in Iraq. I am going to look that up.
    Ms. Frankel.
    Ms. Frankel. Thank you, Madame Chair. And a number of my 
questions were answered. Thank you. First, I want to follow up 
on Mr. Deutch's question about women. I understand that 3 years 
ago when Morocco adopted a new constitution it guaranteed 
gender equality. However, I am told that there is still not the 
equality the women would like. For example, I think the legal 
marriage age was raised from 15 to 18, but a judge can still 
grant and do grant permission for marriages at a much younger 
age and also that there are inheritance laws that still favor 
men. I don't know, those are just a couple of examples. But I 
wanted to know what your opinion is on the status of women in 
Morocco.
    Thank you for sharing with us some of the programs that 
USAID and others are putting into effect, I guess to counter a 
possible Arab Spring and to minimize terrorism. I want to know 
whether there are any measures of effectiveness, any measures 
to see whether or not any of these programs are being 
effective.
    And last question is and this is also a followup, if you 
could say a little bit more as to the strategic importance of 
Morocco, explaining why we are putting these efforts into 
Morocco and their relationship to their neighboring African 
countries.
    Mr. Roebuck. Thank you. Thank you, Congresswoman. On the 
issue of reform in women's position in society, I would say 
that it is a work in progress in Morocco with regard to reform 
for women's rights and reform writ large. The Moroccans 
embarked on a major reform in 2003 and 2004 that benefitted 
women, the reform of their family code. It strengthened 
provisions relating to inheritance, divorce, child custody and 
similar type provisions. The 2011 constitution strengthened 
further some of those reforms and made constitutionally clear 
the equality between men and women. But some of the issues that 
you raise, child marriage, the low age for women that can be 
married remain a problem and I think the Moroccan Government is 
aware of it, but our sense is that they are reform oriented. 
They want to make improvements. They are continuing to do this 
and what we have seen in the last decade really is a steady 
move of progress.
    One of the human rights people who went out in 2012, noted 
an emerging culture of human rights in Morocco. For example, it 
is just another example of the type of reform that has been 
available to witness out there.
    Just a word on the strategic importance of Morocco in the 
region and Alina, I will let you say something if you would 
like to on the effectiveness of our programs. We have a 
strategic relationship with Morocco because it is such an 
important country in the region. Its geographic location is 
very important. It is involved in one of the major conflict 
areas, the Western Sahara, which is important and is creating 
some issues with Algeria. Morocco is a key country for us in 
helping to counter violent extremism. It is a critical partner 
in that and it is a critical trade partner. And it is a 
critical country as a voice of moderate Islam. For all those 
reasons, it is a very important strategic partner for the 
United States. Thank you, ma'am.
    Ms. Romanowski. On the issue of measuring effectiveness and 
our monitoring evaluation, we do monitor and evaluate our 
programs and in fact, the opportunity to do a new 5-year 
country strategy afforded us that opportunity to go back and 
review the programs that we were working and where we felt they 
needed to really shift and keep up with what the changes that 
were going on in Morocco. That is what caused us really to redo 
the economic growth piece to focus on the workforce 
development.
    On our political and democracy and governance programs, we 
realized we needed to continue to strengthen those institutions 
that are part of that political process, like political 
parties, strengthen the local governance and work specifically 
again to continue to support the engagement of young people as 
well as women in politics and in the political process. We do 
continue and will continue to strongly monitor our program.
    Ms. Frankel. Thank you, Madame Chair.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel. And I thank Mr. 
Weber for being nice enough to allow me jump him in turn 
because Mr. Grimm needs to get back to his subcommittee.
    So Mr. Grimm is recognized for 5 minutes. Thank you for 
visiting us.
    Mr. Grimm. Thank you for having me, Chairman. Thank you, 
Mr. Weber. I appreciate the courtesy. Thank you to the 
witnesses.
    I would like to step back for a second and just expand a 
little bit. The chairwoman mentioned before about the report, 
obviously, in the omnibus in January Congress authorized the 
funds designated for Morocco. It could also be used for the 
Western Sahara Literacy Training Program and my understanding 
is that that report is due to Congress next week, Mr. Roebuck. 
As far you know, is it on schedule to be delivered next week?
    Mr. Roebuck. Yes, sir. We are preparing the report and it 
will be delivered in compliance with the law.
    Mr. Grimm. Is there any way you can thumbnail, obviously, I 
am not looking for details, but just give me some idea of what 
to expect, any highlights of what we can expect to see in that 
report?
    Mr. Roebuck. I think the report will describe our efforts 
to provide assistance to Morocco and it will outline some of 
the areas where we have provided that assistance addressing the 
particular areas that the legislation wants to see more 
information on. And it will make the point with regard to 
assistance for Morocco that would be used in the Western 
Sahara, the United States, our policy is that we should not 
take any actions that would be perceived as undermining our 
support for the U.N.-led mediation process and that is a pillar 
of our policy. And the report would include that point.
    Mr. Grimm. Thank you. I appreciate that. Changing gears a 
little bit, as a member that represents New York City, 
financial services industry is an area of great interest to me, 
so I am very happy to see that Morocco is becoming a 
destination for many U.S. companies, not just as an export 
market, but also as a platform for exports into Africa, Europe, 
and broader Middle East. The new Casablanca finance city 
project is poised to become I think one of the central economic 
hubs for international companies that are looking or are 
already doing business throughout the African continent.
    Is there anything that you can tell us about how American 
companies are using Morocco both as an export market, but also 
as a gateway to the entire region?
    Mr. Roebuck. Thank you, Congressman. I would say just in 
short that the primary way that American companies so far are 
working in Morocco is to use the huge vehicle of the free trade 
agreement which has been in place and entered into force in 
2006 which gives U.S. companies an ability to invest in Morocco 
and to export there. It also, in turn, gives Morocco the 
opportunity to do the same here. I think that is the big 
benefit and that is where we are focusing. We have also 
recently signed when King Mohammed VI was here a trade 
facilitation agreement which will further shore up those 
efforts. Thank you.
    Mr. Grimm. Ms. Romanowski, anything you would like to add?
    Ms. Romanowski. In my most recent conversations with 
Moroccan businessman, and that was Friday night while I was 
there for the strategic dialogue, it was very clear that they 
were looking to some of our programs to be able to help them 
build a stronger network with American companies and they were 
very conscious of the fact that American companies were coming 
into Morocco. So I think that they were looking forward to it 
and I think the trend is very positive.
    Mr. Grimm. Great. Thank you, again. I am going to yield 
back the rest of my time.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Grimm. Thank you, Madame Chairwoman.
    Ms. Ros-Lehtinen. Thanks for joining us and thanks for your 
leadership with the Moroccan caucus.
    And now I am thrilled--we will recognize, Mr. Connolly, I 
am sorry----
    Mr. Connolly. No, no, thrilled, keep going.
    Ms. Ros-Lehtinen. What a thrill it is to recognize Mr. 
Connolly of Virginia for his question and answer period.
    Mr. Connolly. Thank you, Madame Chairman. A welcome to the 
panel. Let me ask Mr. Roebuck what has been the impact of the 
repression and military crackdown in Egypt on both the Moroccan 
Government and to the extent we know it, public opinion of 
Morocco?
    Mr. Roebuck. Thank you, sir. For the question. It is 
probably--it might be a little difficult for me to assess that 
directly, but I will say based on my read of the region in 
general, people in the region have looked very closely at what 
has happened in Egypt. They have taken note. I think, for 
example, in Tunisia, some of the political parties watched very 
carefully what happened in Egypt. It probably made them more 
flexible maybe in the types of national dialogue talks that 
they were having and helped lead to a breakthrough with a new 
government and a new constitution.
    Morocco was in a little different situation. It didn't have 
elections approaching in the fall when a lot of this was going 
on. I suspect the people in Morocco are concerned about what is 
going on in Egypt and they are looking at it very carefully. It 
may be causing them to reevaluate some of their conceptions 
about the Arab Spring and about democratic evolution and how 
fast it can happen and how some of the possible side effects of 
that type of turmoil. But a lot of those effects, at least in 
Morocco, are not as visible as they might be in some of the 
other countries in North Africa. I took a stab at answering 
your question. Thank you, sir.
    Mr. Connolly. I think it behooves us to sort of look at 
that question because hopefully Morocco and the Moroccan 
Government and the Moroccan people look at that and go, that is 
not where we want to go for lots of different reasons with lots 
of different dynamics, but let me ask you about--where is the 
Polisario right now? What is their political standing? What is 
their appeal? What influence, if any, do they have in the 
western part of the country?
    Mr. Roebuck. The Polisario is a long-standing political 
organization that represents residents of Western Sahara who 
have advocated for independence.
    Ms. Ros-Lehtinen. If you could speak a little bit closer to 
the microphone.
    Mr. Connolly. You need to speak closer to the mic, Mr. 
Roebuck.
    Ms. Ros-Lehtinen. It is hard to hear.
    Mr. Roebuck. Sorry.
    Mr. Connolly. And Madame Chairman if I could have that 1 
minute and 50 seconds back.
    Mr. Roebuck. The Polisario is the political organization 
that advocates for independence and for a referendum in Western 
Sahara. I think their influence is somewhat circumscribed in 
the last decade. I think----
    Mr. Connolly. Well, all right, Mr. Roebuck. I am old enough 
to remember when the Spanish gave it us.
    Mr. Roebuck. Right.
    Mr. Connolly. And I am old enough to remember when 
Polisario emerged as a political force of some sort.
    Mr. Roebuck. Right.
    Mr. Connolly. What we are trying to get at here is are they 
stronger? Are they weaker? Are their tentacles growing? Are 
they retreating? Are they actually kind of a fringe force at 
this point? Has the Moroccan Government been able to exercise 
sovereignty in a meaningful and real way that is recognized and 
respected by the people who live in the western part of the 
country or what?
    Mr. Roebuck. Thank you, Congressman. It is a conflict that 
is an area that remains sort of conflict. You know, there are 
two parties to it. The United States' view is that those 
parties have to reach a mutually agreed upon solution. In 
answer to your question about are they weaker or are they 
stronger, I think probably over the past decade or so, they 
have gotten weaker, I am not sure politically. I am just 
speculating there. But they remain a key party in that conflict 
and our view is that the parties have to reach a solution and 
it can't be one that is imposed. So weaker or not, they remain 
a party to the conflict and we support a process that would be 
a U.N.-lead negotiations process between them and the Moroccan 
Government.
    In terms of sovereignty, the territory of Western Sahara is 
considered by the U.N. as a non-self governing territory. 
Morocco exercises a non-official, sort of an administrator for 
its part of the territory, but it is not recognized by the U.N. 
as an official administering power for the Western Sahara. The 
key point for us is that this has got to be done through a 
negotiated process.
    Mr. Connolly. Just one more question if I may, Madame 
Chairman. Does anybody think Western Sahara could actually 
function as an independent sovereign state viably?
    Mr. Roebuck. It is a difficult question to answer. I think 
in terms of explaining our policy, we don't sort of reach that 
level of inquiry. We prefer to focus on a process that lets the 
parties reach a solution, rather than looking at the situation 
and saying well, this side of the conflict doesn't have a 
viable solution to it, if you see what I am saying.
    Mr. Connolly. Not really. I mean what is so hard about the 
United States Government deciding in our humble opinion Country 
X could never stand alone as a sovereign state viably? Why 
can't we make that decision from time to time? We don't have 
to.
    Mr. Roebuck. Right. I suppose we could, but we haven't 
reached that decision.
    Mr. Connolly. We have not reached that decision.
    Mr. Roebuck. No. Our policy is not based on that type of 
conclusion. It is based on a process where the parties who are 
involved in a conflict have to reach a negotiated settlement.
    Mr. Connolly. Does the Moroccan Government agree with that 
position?
    Mr. Roebuck. You might want to ask Ambassador Bouhlal who 
is here. I think the Moroccans have put forward a proposal 
which is autonomy under Moroccan sovereignty as their solution 
to that conflict. We believe that is a serious, realistic, and 
credible proposal. It is a potential approach to address the 
concerns of the people of Western Sahara and help them to live 
their lives in justice and dignity. So we think it is a 
potential approach. But in the end, we don't believe you can 
impose it.
    Mr. Connolly. Of course. Thank you. My time is up.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Mr. Weber. Thank 
you for your patience. Thank you.
    Mr. Weber. Thank you. Gosh, so many questions. Morocco 
receives substantial U.S. development aid in bilateral trade 
investment and that has increased following a 2006 free trade 
agreement. Our trade partnership with Morocco has increased 
following 2006 free trade agreement. How much?
    Mr. Roebuck. Our trade has increased about 400 percent.
    Mr. Weber. Would you put in that in dollars?
    Mr. Roebuck. I am not sure I have the dollar value, but it 
is a big increase on both sides. It has increased about 400 
percent for the United States and between 150 and 200 percent 
on the Moroccan side. So it has been a big benefit for both, 
but a bigger benefit so far for U.S. exports and we are working 
with the Moroccans through our commercial law development 
program, through USAID, through the Millennium Challenge 
Corporation to even that out with some competitiveness efforts 
so that Moroccans can equally benefit from that.
    Mr. Weber. I saw that Morocco recently concluded a 5-year 
$697.5 million MCC compact which focused on alleviating poverty 
and all these goals. Successful?
    Mr. Roebuck. I think it was very successful. Our 
assessment, it focused on sustainable tourism, sustainable 
fisheries and agriculture. It educated with basic literacy 
about 40,000 relatively poor people who were involved in those 
three fields. Eighty percent of those people were women. It 
helped build a tourist infrastructure in Fez Medina and also 
focused a little bit to a certain degree on financial services 
in a few other areas.
    Morocco was recently reselected for a second compact. I 
think many people were impressed with the way it engaged on 
this Millennium Challenge Corporation with its institutions and 
its sort of enthusiasm. And we are moving forward with shaping 
a second compact for Morocco.
    Mr. Weber. I saw that and then my further reading it said 
that the bicameral legislature consisted of chamber of 
counselors who are indirectly elected and a chamber of reps who 
are directly elected. Explain that to me.
    Mr. Roebuck. The chamber that is directly elected, that is 
the parliamentary elections that took place in 2011.
    Mr. Weber. Was it like the senators in our original 
constitution? They were elected by the states, similar?
    Mr. Roebuck. It is a similar election. They indirectly 
elected people, it is more of an appointment, basically. A lot 
of them are appointed.
    Mr. Weber. Okay. And I noticed that I think one of my 
colleagues over on the other side alluded to the women's, the 
improvement of women's socio-economic rise was the 2004 
revision of the Family Code that aimed to improve women's 
socio-economic rights. Has that been successful? Can you give 
me a status update or Ms. Romanowski, is that your bailiwick?
    Ms. Romanowski. Well, actually, I think it is everyone's 
bailiwick.
    Mr. Weber. Okay.
    Ms. Romanowski. Of engaging Moroccans and supporting 
Moroccan women and their rights. And through our programs we 
ensure that all of the USAID programs make sure that women are 
included and supported and specifically when it comes to our 
democracy and governance, we are making sure that women who 
want to be, who get into politics have the kind of training and 
skills and have the advantage and also in our economic 
workforce development project.
    Mr. Weber. So you all feel that it has been successful?
    Ms. Romanowski. Yes. There is a lot more work to do. That 
is true across the region. But I think Morocco actually stands 
out as making some----
    Mr. Weber. Let me move on. I am running out of time here. 
Further my reading, it says that in talking about the division 
between Western Sahara and Morocco, that there were some who 
were concerned that Western Sahara would actually become a 
training ground for terrorists and that they were concerned 
about those coming back from Iraq and even that--some of those 
Western Sahara potential terrorists had been trained in Western 
Europe? Is that right? Are you aware of that, Mr. Roebuck?
    Mr. Roebuck. Thank you, Congressman, for that question. I 
am not aware of that report. Our general assessment of the 
Western Sahara is as follows. It is a large space. We don't 
think that it is good for a space that big to be an ungoverned 
space. That is why we support the U.N. being there with the 
MINURSO organization. But in terms of what you are talking 
about which is some sort of ties between terrorists and the 
people in the Western Sahara, to our knowledge, we are not 
aware of significant terrorist activity in the Western Sahara 
and we are not aware of links between, for example, the 
Polisario, and terrorist organizations like the ones you have 
cited.
    Mr. Weber. And then one final question, if I may, Madame 
Chair. In talks about recent congressional actions, Morocco and 
the Polisario have advocates on both sides, directly appeal to 
Congress to support their positions on the Western Sahara. Many 
Members of Congress support Morocco's position asserting 
sovereignty over the territory. So I don't mean to put you on 
the spot, but how many Members of Congress support that 
position, do you know?
    Mr. Roebuck. I do not, sir. I don't know exactly what the 
numbers would be. As I mentioned to Congressman Connolly, I 
mean our review is the issue of sovereignty is something that 
should be resolved through negotiations with the parties, but 
both sides have put forth proposals. We think that the Moroccan 
proposal is very serious, credible, and realistic. But in the 
end, we can't impose it.
    Mr. Weber. Okay, then forgive me one more question. Does 
the U.N. recognize Western Sahara as a what?
    Mr. Roebuck. It is a non-self governing territory.
    Mr. Weber. A non-self governing territory.
    Mr. Roebuck. That is the official, legal definition the 
U.N. uses to describe it.
    Mr. Weber. I think some might describe Congress as that. So 
Madame Chair, I yield back.
    Ms. Ros-Lehtinen. Thank you so much to our witnesses. Thank 
you to the audience, especially to our members. And with that, 
the subcommittee is adjourned. Thank you, ladies and gentlemen.
    [Whereupon, at 4:13 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
